         Pension Benefit Guaranty Corporation
                  Office of Inspector General
                             Audit Report




   Audit of the Pension Benefit Guaranty Corporation’s
     Fiscal Year 2007 and 2006 Financial Statements

                         Independent Auditor’s Report


______________________________________________________________________________


                    Pension Benefit Guaranty Corporation’s
                Fiscal Year 2007 and 2006 Financial Statements


_______________________________________________________________________




                         November 15, 2007
                                                                 2008-1/FA-0034-1
                       Pension Benefit Guaranty Corporation
                                                         Office of Inspector General
                                        1200 K Street, N.W., Washington, D.C. 20005-4026




To the Board of Directors
Pension Benefit Guaranty Corporation

We contracted with Clifton Gunderson LLP, an independent certified public accounting firm, to
audit the financial statements of the Single-Employer and Multiemployer Program Funds
administered by the Pension Benefit Guaranty Corporation (PBGC) as of and for the years ended
September 30, 2007 and 2006. They conducted their audits in accordance with auditing standards
generally accepted in the United States of America; Government Auditing Standards, issued by
the Comptroller General of the United States; Office of Management and Budget Bulletin No. 07-
04, Audit Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
Manual.

In the audit of PBGC’s Single-Employer and Multiemployer Program Funds, Clifton Gunderson
found:

    •   The financial statements were presented fairly, in all material respects, in conformity with
        accounting principles generally accepted in the United States of America;

    •   PBGC’s assertion about internal control over financial reporting (including safeguarding
        assets) and compliance with laws and regulations, as of September 30, 2007, is fairly
        stated in all material respects. However, they also identified three significant deficiencies
        regarding PBGC’s need to: complete its efforts to fully implement and enforce an
        effective information security program, effectively implement consistent controls to
        restrict access to its information systems, and integrate its financial management systems.

    •   No instances of noncompliance with tested laws and regulations.

Clifton Gunderson is responsible for the accompanying auditor’s report dated November 8, 2007,
and the conclusions expressed in the report. We do not express opinions on PBGC’s financial
statements or internal control, nor do we draw conclusions on compliance with laws and
regulations.

Clifton Gunderson’s report (2008-1/FA-0034-1) is also available on our website at
http://oig.pbgc.gov.

Sincerely,



Deborah Stover-Springer
Acting Inspector General

November 8, 2007
               Audit of the Pension Benefit Guaranty Corporation’s
                 Fiscal Year 2007 and 2006 Financial Statements
                          Audit Report 2008-1/FA-0034-1


                                         Contents



Section I:      Independent Auditor’s Report


Section II:     Pension Benefit Guaranty Corporation’s Fiscal Year
                2007 and 2006 Financial Statements


Section III:    Agency Comments




                                      Abbreviations



FIPS PUB       Federal Information Processing Standards Publication
FMFIA          Federal Managers’ Financial Integrity Act of 1982
FY             Fiscal Year
IT             Information Technology
OIG            Office of Inspector General
OMB            Office of Management and Budget
PBGC           Pension Benefit Guaranty Corporation
         Section I

Independent Auditor’s Report
a1
                                   Independent Auditor’s Report


To the Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


In our audits of the Single-Employer and Multiemployer Program Funds administered by the
Pension Benefit Guaranty Corporation (PBGC) for fiscal years (FY) 2007 and 2006, we found:

•    the financial statements are presented fairly, in all material respects, in conformity with
     accounting principles generally accepted in the United States of America;

•    although internal controls could be improved, PBGC had effective internal control over
     financial reporting (including safeguarding assets) and compliance with laws and regulations
     as of September 30, 2007; and

•    no reportable noncompliance in fiscal year 2007 with laws and regulations we tested.

The following sections discuss in more detail (1) these conclusions, (2) our audit objectives,
scope, and methodology, and (3) agency comments and our evaluation.

                                 Opinion on Financial Statements

The financial statements, including the accompanying notes, present fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States of
America, the financial position of the Single-Employer and Multiemployer Program Funds
administered by PBGC as of September 30, 2007 and 2006, and the results of their operations
and cash flows for the fiscal years then ended.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining.
As of September 30, 2007, PBGC reported in its financial statements net deficit positions
(liabilities in excess of assets) in the Single-Employer and Multiemployer Program Funds of
$13,111 million and $955 million, respectively.           As discussed in Note 7 to the




11710 Beltsville Drive
Suite 300
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                 Offices in 17 states and Washington, DC        h
financial statements, losses as of September 30, 2007 for the Single-Employer and
Multiemployer Programs that are reasonably possible as a result of unfunded vested benefits are
estimated to be $65,665 million and $73 million, respectively. PBGC’s net deficit and long-term
viability could be further impacted by losses from plans classified as reasonably possible (or
from other plans not yet identified as potential losses) as a result of deteriorating economic
conditions, the insolvency of a large plan sponsor or other factors. PBGC has been able to meet
their short-term benefit obligations. However, as discussed in Note 1 to the financial statements,
management believes that neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.

                                  Opinion on Internal Control

Management’s assertion included in the Annual Management Report, that PBGC maintained, in
all material respects, effective internal control over financial reporting (including safeguarding
assets) and compliance with laws and regulations as of September 30, 2007 is fairly stated, in all
material respects, based on criteria contained in 31 U.S.C. 3512 (c), (d), the Federal Managers’
Financial Integrity Act of 1982 (FMFIA).

However, we identified certain deficiencies in internal control over financial reporting (including
safeguarding assets) and compliance with laws and regulations and its operation that we consider
to be significant deficiencies which adversely affect PBGC’s ability to meet the internal control
objectives listed in the objectives, scope, and methodology section of this report, or meet Office
of Management and Budget (OMB) criteria for reporting matters under FMFIA.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity's ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control. Significant deficiencies we noted are as follows:

1. PBGC needs to complete its efforts to fully implement and enforce an effective information
   security program.
2. PBGC needs to effectively implement consistent controls to restrict access to its information
   systems.
3. PBGC needs to integrate its financial management systems.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control. We believe that none of the
significant deficiencies described in this report are material weaknesses.

                             ********************************
SIGNIFICANT DEFICIENCIES

PBGC relies extensively on information technology (IT) systems to accomplish its mission and
in the preparation of its financial statements. Internal controls over these operations are essential
to ensure the confidentiality, integrity, and availability of critical data while reducing the risk of
errors, fraud and other illegal acts.

PBGC implemented significant improvements in FY 2007. Of particular note, PBGC diligently
addressed the significant deficiency (formerly reportable condition) relating to its preparedness
for unanticipated incidences and disruptions of its business operations. PBGC’s commitment, as
a whole, to correcting this deficiency resulted in its removal from the internal control report. In
addition, as a result of PBGC’s progress in addressing data quality issues with the single
employer premium system, the deficiency is no longer viewed separately. However, since there
are remaining system issues the deficiency is included as part of the Integrated Systems
significant deficiency.

In the IT area, the FY 2007 improvements included hiring a new Chief Information Officer and
enhancing the roles and responsibilities for risk management and information security that
resulted in an improved strategy to implement an effective entity-wide security program.
However, our testing revealed general control weaknesses still exist in PBGC’s entity-wide
security management and access controls. These weaknesses prevent PBGC from implementing
effective security controls to protect its information from unauthorized access, modification, and
disclosure.

While PBGC implemented a new financial management system in October 2006 to consolidate
three of its subsidiary ledger systems, PBGC still lacks an integrated financial system. As a
result, extensive data manipulation and excessive manual processes are required to reconcile
financial statement information.

Based on our findings we are reporting as significant deficiencies for FY 2007 the lack of fully
effective entity-wide security management, access controls and financial management systems
integration. We note that the lack of an effective entity-wide security program and an integrated
financial system were reportable conditions in prior audit reports. The designation of access
controls as a significant deficiency is based on the aggregation of control weaknesses, showing a
systemic problem. Our detailed findings and recommendations have been provided to
management in a separate limited disclosure report dated November 8, 2007. A summary of the
significant deficiencies and related recommendations follows.

1. PBGC Needs to Complete its Efforts to Fully Implement and Enforce an Effective
   Information Security Program

   An entity-wide security program should be in place to establish a framework and continuing
   cycle of activity to manage security risk, develop security policies, assign responsibilities,
   and monitor the adequacy of computer security related controls. It should also represent the
   foundation for an entity’s security control structure and a reflection of senior management’s
   commitment to addressing security risks. OMB Circular No. A-130, Appendix III Security of
   Federal Automated Information Resources, requires agencies to implement and maintain a
   program to assure that adequate security is provided for all agency information collected,
   processed, transmitted, stored, or disseminated in general support systems and major
   applications.

   PBGC has demonstrated its ability to remediate several specific IT findings identified in
   prior year audits and has taken the initiative to reorganize and improve its security planning
   and management through the design and initial implementation of an entity-wide security
   program, but has not fully developed and implemented its security program. Our current
   year audit work found inconsistent remediation on an entity-wide basis and deficiencies in
   the areas of security program management, including policy administration and the
   certification and accreditation of major applications and general support systems. An
   effective entity-wide security management program demonstrates the ability to implement
   enhancements to an organization’s control environment on all new and existing systems and
   platforms in use.

   Although a security program exists, without full development and implementation, security
   controls may be inadequate; responsibilities may be unclear, misunderstood, and improperly
   implemented; and controls may be inconsistently applied. Such conditions may lead to
   insufficient protection of sensitive or critical resources and disproportionately high
   expenditures for controls over low risk resources. For this reason, this issue remains a
   significant deficiency for FY 2007.

   Recommendation:

   PBGC management should continue developing and implementing its security program
   management that will enable the completion of an effective entity-wide security program.

2. PBGC Needs to Effectively Implement Consistent Controls to Restrict Access to its
   Information Systems

   Although access controls are an integral part of an effective information security program,
   access controls are a systemic problem throughout PBGC. Though PBGC has made progress
   in correcting access control weaknesses, there are still a significant number of outstanding
   audit recommendations.

   Access controls should be in place to consistently limit, detect, or monitor access to computer
   programs, data, equipment, and facilities thereby protecting against unauthorized
   modification, disclosure, loss or impairment. Such controls include both logical and physical
   security controls to ensure that federal employees, contractors and staff will be given only the
   privileges necessary to perform business functions, i.e., access privileges. Federal
   Information Processing Standards Publication (FIPS PUB) 200, Minimum Security
   Requirements for Federal Information and Information Systems, specifies minimum access
   controls for federal systems. PBGC’s information system owners must limit information
   system access to authorized users.
   Although a number of prior access control findings have been addressed through the initial
   implementation of PBGC’s new security program, additional weaknesses still exist that
   require management’s attention. We found deficiencies in system configurations and user
   account management across many of PBGC’s systems. Based on the number and
   significance of our findings in the aggregate, the implementation of PBGC’s comprehensive
   security program that includes access control and increased management oversight is needed
   to fully address the administration and reliability of computerized data and to decrease the
   risk of destruction or inappropriate disclosure of data. For this reason, this issue is a
   significant deficiency for FY 2007.

   Recommendation:

   PBGC management and information system owners should continue on its path to mitigate
   the systemic issues related to access control by strengthening system configurations and user
   account management for all of PBGC’s information systems.

3. PBGC Needs to Integrate its Financial Management Systems

   As reported in prior year audits, PBGC lacks integrated financial management systems.
   Though PBGC implemented a financial management system in October 2006, it has not
   completed the integration of its financial systems. OMB Circular A-127, Financial
   Management System, requires that federal financial management systems be designed to
   provide for effective and efficient interrelationships between software, hardware, personnel,
   procedures, controls, and data contained within the systems. The lack of a single integrated
   financial management system increases the risk of inaccurate, inconsistent, and redundant
   data that cannot be readily accessed and used by financial and program managers without
   extensive manipulation; excessive manual processing; and inefficient balancing of reports to
   reconcile disbursements, collections and general ledger data.

   In the short term, PBGC’s ability to accurately and efficiently accumulate and summarize
   information required for internal and external financial reporting may be impacted. For this
   reason, this issue is a significant deficiency for FY 2007.

   Recommendation:

   PBGC management should continue their efforts to integrate PBGC’s financial management
   systems in accordance with OMB Circular A-127.

                            ********************************

In addition to the significant deficiencies described above, we noted certain matters involving
PBGC’s internal controls and operations that we reported to the PBGC management in a separate
letter dated November 8, 2007.
                            Compliance with Laws and Regulations

Our tests for compliance in FY 2007 with selected provisions of laws and regulations disclosed
no instances of noncompliance that would be reportable under U.S. generally accepted
government auditing standards or OMB audit guidance. However, the objective of our audit was
not to provide an opinion on overall compliance with laws and regulations. Accordingly, we do
not express such an opinion.

This conclusion is intended solely for the information and use of PBGC’s Office of Inspector
General, Board of Directors, management of PBGC, Government Accountability Office, Office
of Management and Budget, the United States Congress, and the President and is not intended to
be and should not be used by anyone other than these specified parties.

                              Objectives, Scope, and Methodology

PBGC’s management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America; (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that the broad control
objectives of FMFIA are met; and (3) complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether (1) the financial statements
are presented fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States of America; and (2) management maintained effective internal
control as of September 30, 2007 based on management’s assertion included in the Annual
Management Report and on the criteria contained in FMFIA, the objectives of which are the
following:

•   Financial reporting: Transactions are properly recorded, processed, and summarized to
    permit the preparation of financial statements in conformity with accounting principles
    generally accepted in the United States of America, and assets are safeguarded against loss
    from unauthorized acquisition, use, or disposition.

•   Compliance with applicable laws and regulations: Transactions are executed in accordance
    with laws and regulations that could have a direct and material effect on the financial
    statements and any other laws, regulations, and governmentwide policies identified by OMB
    audit guidance.

We are also responsible for testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements and laws for which OMB audit
guidance requires testing.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the accounting principles used
and significant estimates made by management; (3) evaluated the overall presentation of the
financial statements; (4) obtained an understanding of internal control related to financial
reporting (including safeguarding assets) and compliance with laws and regulations; (5) tested
relevant internal control over financial reporting (including safeguarding assets) and compliance,
and evaluated the design and operating effectiveness of internal control for the FY ended
September 30, 2007; and (6) tested compliance in FY 2007 with selected provisions of laws and
regulations that have a direct and material effect on the financial statements.

We limited our internal control testing to controls over financial reporting and compliance.
Because of inherent limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may become inadequate because of
changes in conditions, or that the degree of compliance with controls may deteriorate.

We did not test compliance with all laws and regulations applicable to PBGC. We limited our
tests of compliance to those laws and regulations required by OMB audit guidance that we
deemed applicable to the financial statements for the fiscal year ended September 30, 2007. We
caution that noncompliance may occur and not be detected by these tests and that such testing
may not be sufficient for other purposes.

We performed our work in accordance with U.S. generally accepted government auditing
standards and OMB audit guidance.

                            Agency Comments and Our Evaluation

In commenting on the draft of this report (see Page 73 of PBGC’s Annual Management Report),
PBGC’s management concurred with the facts and conclusions in our report. We did not
perform audit procedures on PBGC’s written response to the significant deficiencies and,
accordingly, we express no opinion on it.



a1
Calverton, Maryland
November 8, 2007
              Section II

Pension Benefit Guaranty Corporation’s
      Fiscal Year 2007 and 2006
         Financial Statements
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                   Single-Employer                     Multiemployer                          Memorandum
                                                                       Program                            Program                                 Total
                                                         ___________________________         _____________________________           ____________________________

                                                                       September 30,                      September 30,                          September 30,


  (Dollars in millions)                                        2007                 2006          2007                    2006            2007                   2006


 ASSETS
 Cash and cash equivalents                                  $ 2,201               $ 1,999        $    7                    $     5      $ 2,208                  $ 2,004
 Securities lending collateral (Note 3)                       5,045                 6,491             0                          0        5,045                    6,491
 Investments, at market (Note 3)
   Fixed maturity securities                                 36,450             35,503            1,189               1,159              37,639             36,662
   Equity securities                                          17,386            13,730                0                   0               17,386            13,730
   Real estate and real estate investment trusts                   3                 4                0                   0                    3                 4
   Other                                                          37                 1                0                   0                   37                 1
                                                   ________________________________         ______________________________           ____________________________

   Total investments                                          53,876               49,238         1,189                     1,159        55,065                    50,397


 Receivables, net:
  Sponsors of terminated plans                                    68               130               0                   0                    68               130
  Premiums (Note 9)                                              151               374                1                  1                   152               375
  Sale of securities                                           5,571             1,440               0                   0                 5,571             1,440
  Investment income                                              286               259               0                   1                   286               260
  Other                                                            2                 3               0                   0                     2                 3
                                                   ________________________________         ______________________________           ____________________________

   Total receivables                                          6,078              2,206                1                  2                6,079              2,208
                                                   ________________________________         ______________________________           ____________________________

 Capitalized assets, net                                          41               38                 0                   0                   41                38
                                                   _________________ ________________       _______________________________          ____________________________
 Total assets                                               $ 67,241         $ 59,972            $1,197              $1,166             $ 68,438          $ 61,138


 LIABILITIES

 Present value of future benefits, net (Note 4):
   Trusteed plans                                           $ 65,096          $ 63,949            $  2               $ 2                $ 65,098           $ 63,951
   Plans pending termination and trusteeship                     298               277               0                   0                   298               277
   Settlements and judgments                                      55                55               0                   0                    55                55
   Claims for probable terminations                            3,786             4,862               0                   0                 3,786             4,862
                                                   ________________________________         ______________________________           ____________________________

   Total present value of future benefits, net                69,235               69,143             2                          2       69,237                   69,145

 Present value of nonrecoverable future
   financial assistance (Note 5)                                                                  2,124               1,876                2,124             1,876
 Payable upon return of securities loaned                     5,045             6,491                 0                   0               5,045              6,491
 Unearned premiums                                              302               298                26                  27                  328               325
 Due for purchases of securities                              5,659             2,089                 0                   0               5,659              2,089
 Accounts payable and accrued expenses (Note 6)                 111                93                 0                   0                  111                93
                                                   _______________________________          ______________________________           ____________________________

 Total liabilities                                           80,352            78,114             2,152               1,905               82,504            80,019
 Net position                                                (13,111)         (18,142)            (955)                (739)             (14,066)          (18,881)
                                                   ________________________________         ______________________________           ____________________________

 Total liabilities and net position                         $ 67,241            $ 59,972         $1,197                    $1,166       $ 68,438                 $ 61,138




The accompanying notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                          Single-Employer                   Multiemployer                        Memorandum
                                                              Program                           Program                               Total
                                              ______________________________   ________________________________   _________________________________
                                                        For the Years Ended               For the Years Ended                 For the Years Ended
                                                           September 30,                     September 30,                       September 30,

 (Dollars in millions)                            2007              2006                 2007          2006                2007             2006
  _______________________________________________________________________      ____________ _______________        ______________     ____________
 UNDERWRITING:
 Income:
  Premium (Note 9)                                $ 1,476          $ 1,442             $ 81            $ 58              $ 1,557           $ 1,500
  Other                                                55               79                0               0                   55                79
                                          _______________________________      ____________________________       ___________________________
  Total                                             1,531            1,521               81              58                1,612                1,579
                                          _______________________________      ____________________________       ___________________________
 Expenses:
  Administrative                                     328              352                 0               0                  328                 352
  Other                                              114                2                 1               0                  115                   2
                                          _______________________________      ____________________________       ___________________________
  Total                                              442              354                 1               0                  443                 354
                                          _______________________________      ____________________________       ___________________________
 Other underwriting activity:
  Losses (credits) from completed and
   probable terminations (Note 10)                   399             (6,155)               0                  0              399            (6,155)
  Losses from financial assistance
   (Note 5)                                                                             319              461               319              461
  Actuarial adjustments (Note 4)                    (114)             (424)               0                0              (114)            (424)
                                          _______________________________      ____________________________       ____________________________
  Total                                              285            (6,579)             319              461               604           (6,118)
                                          _______________________________      ____________________________       ____________________________
 Underwriting gain (loss)                            804             7,746             (239)            (403)              565            7,343
                                          _______________________________      ____________________________       ____________________________
 FINANCIAL:
 Investment income (Note 11):
  Fixed                                             1,730              394               23               (1)             1,753             393
  Equity                                           2,988             1,793                0                0              2,988           1,793
  Other                                                19               (3)               0                0                 19              (3)
                                          _______________________________      ____________________________       ____________________________
  Total                                            4,737            2,184                23               (1)             4,760           2,183
                                          _______________________________      ____________________________       ____________________________
 Expenses:
  Investment                                          50                 53                0                  0               50                  53
  Actuarial charges (credits) (Note 4):
   Due to passage of time                           3,269            3,206                0                0              3,269            3,206
   Due to change in interest rates                 (2,809)           2,037                0                0             (2,809)           2,037
                                          _______________________________      ____________________________       ____________________________
  Total                                               510            5,296                0                0                510            5,296
                                          _______________________________      ____________________________       ____________________________
 Financial income (loss)                            4,227           (3,112)              23               (1)             4,250           (3,113)
                                          _______________________________      ____________________________       ____________________________
 Net income (loss)                                  5,031            4,634             (216)            (404)             4,815            4,230
                                          _______________________________      ____________________________       ____________________________
 Net position, beginning of year                  (18,142)         (22,776)            (739)            (335)           (18,881)         (23,111)
                                          _______________________________      ____________________________       ____________________________
 Net position, end of year                       $(13,111)        $(18,142)           $(955)           $(739)          $(14,066)        $(18,881)



The accompanying notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                   Single-Employer          Multiemployer          Memorandum
                                                                        Program                Program                  Total
                                                                  For the Years Ended    For the Years Ended     For the Years Ended
 (Dollars in millions)                                                September 30,          September 30,           September 30,
____________________________________________________           ______2007 ____2006      ____2007 ____2006       ____2007 ____2006
OPERATING ACTIVITIES:

  Premium receipts                                              $ 1,598 $ 1,579         $     81    $     76    $ 1,679 $ 1,655
  Interest and dividends received, net                             1,408    1,689               7         44       1,415   1,733
  Cash received from plans upon trusteeship                          165       75               0          0         165      75
  Receipts from sponsors/non-sponsors                                345      884               0          0         345     884
  Receipts from the missing participant program                        3        7               0          0           3       7
  Other receipts                                                       3        9               0          0            3      9
  Benefit payments – trusteed plans                               (4,170) (4,006)               0          0      (4,170) (4,006)
  Financial assistance payments                                                              (71)        (70)        (71)    (70)
  Settlements and judgments                                            (2)        (3)           0          0          (2)     (3)
  Payments for administrative and other expenses                     (377)      (373)           0          0        (377)   (373)
Net cash provided (used) by operating activities (Note 13)         (1,027)      (139)          17         50      (1,010)    (89)

INVESTING ACTIVITIES:
  Proceeds from sales of investments                             123,680      90,261      1,978       2,119      125,658     92,380
  Payments for purchases of investments                         (122,451)    (90,073)    (1,993)     (2,177)    (124,444)   (92,250)
  Net change in investment of securities lending collateral       (1,446)       (448)         0           0       (1,446)      (448)
  Net change in securities lending payable                         1,446         448          0           0        1,446        448
Net cash provided (used) by investing activities                   1,229         188        (15)        (58)       1,214        130

Net increase (decrease) in cash and cash equivalents                 202          49           2          (8)       204      41
Cash and cash equivalents, beginning of year                       1,999       1,950           5          13      2,004   1,963
Cash and cash equivalents, end of year                           $ 2,201     $ 1,999     $     7     $     5    $ 2,208 $ 2,004


The accompanying notes are an integral part of these financial statements
NOTES TO FINANCIAL STATEMENTS

SEPTEMBER 30, 2007 AND 2006

Note 1 -- Organization and Purpose
        The Pension Benefit Guaranty Corporation (The PBGC or the Corporation) is a federal
corporation created by Title IV of the Employee Retirement Income Security Act of 1974 (ERISA) and
is subject to the provisions of the Government Corporation Control Act. Its activities are defined in
ERISA as amended by the Multiemployer Pension Plan Amendments Act of 1980, the Single-Employer
Pension Plan Amendments Act of 1986, the Pension Protection Act of 1987, the Retirement Protection
Act of 1994, the Consolidated Appropriations Act, 2001, the Deficit Reduction Act of 2005, and the
Pension Protection Act of 2006. The Corporation insures the pension benefits, within statutory limits,
of participants in covered single-employer and multiemployer defined benefit pension plans.
        ERISA requires that the PBGC programs be self-financing. ERISA provides that the U.S.
Government is not liable for any obligation or liability incurred by the PBGC.
        For financial statement purposes, the PBGC divides its business activity into two broad areas –
Underwriting Activity and Financial Activity – covering both single-employer and multiemployer program
segments. The PBGC’s Underwriting Activity provides financial guaranty insurance in return for
insurance premiums (whether actually paid or not). Actual and expected probable losses that result from
the termination of underfunded pension plans are included in this category, as are actuarial adjustments
based on changes in actuarial assumptions, such as mortality. Financial Activity consists of the
performance of the PBGC’s assets and liabilities. The PBGC’s assets consist of premiums collected
from defined benefit plan sponsors, assets from distress or involuntarily terminated plans that the PBGC
has insured, and recoveries from the former sponsors of those terminated plans. The PBGC’s future
benefit liabilities consist of those future benefits, under statutory limits, that the PBGC has assumed
following distress or involuntary terminations. Gains and losses on the PBGC’s investments and
changes in the value of the PBGC’s future benefit liabilities (e.g., actuarial charges such as changes in
interest rates and passage of time) are included in this area
        As of September 30, 2007, the single-employer and multiemployer programs reported deficits of
$13.1 billion and $955 million, respectively. The single-employer program had assets of over
$67.2 billion which is offset by total liabilities of $80.4 billion, which include a total present value of
future benefits (PVFB) of approximately $69.2 billion. As of September 30, 2007, the multiemployer
program had assets of approximately $1.2 billion offset by approximately $2.1 billion in present value of
nonrecoverable future financial assistance.
        Notwithstanding these deficits, the Corporation has sufficient liquidity to meet its obligations for
a number of years; however, neither program at present has the resources to fully satisfy the PBGC’s
long-term obligations to plan participants.


Single-Employer and Multiemployer Program Exposure
        Measures of risk in the PBGC’s insured base of plan sponsors suggest that the single-employer
deficit may begin to abate in the short term. The PBGC’s best estimate of the total underfunding in
plans sponsored by companies with credit ratings below investment grade, and classified by the PBGC as
reasonably possible of termination as of September 30, 2007, was $66 billion. The comparable estimates
of reasonably possible exposure for 2006 and 2005 were $73 billion and $108 billion, respectively. These
estimates are measured as of December 31 of the previous year (see Note 7). For 2007, this exposure is
concentrated in the following sectors: manufacturing; transportation, communication and utilities;
services/other; and wholesale and retail trade.
        The PBGC estimates that, as of September 30, 2007, it is reasonably possible that multiemployer
plans may require future financial assistance in the amount of $73 million. As of September 30, 2006 and
2005, these exposures were estimated at $83 million and $418 million, respectively.
        There is significant volatility in plan underfunding and sponsor credit quality over time, which
makes long-term estimates of the PBGC’s expected claims difficult. This volatility, and the
concentration of claims in a relatively small number of terminated plans, have characterized the PBGC’s
experience to date and will likely continue. Among the factors that will influence the PBGC’s claims
going forward are economic conditions affecting interest rates, financial markets, and the rate of business
failures.
        Total underfunding reported under section 4010 is the current source of individual plan
underfunding information; it has accounted for over 75% of the estimates of total underfunding
reported in the recent past. Due to the degradation in the quality and reliability of the estimates resulting
from the changes to section 4010 reporting requirements including the regulation-driven changes in the
Required Interest Rate as well as PPA changes to who must file, the PBGC will no longer publish
estimates of total underfunding in the Annual Management Report. However, the Corporation will
continue to publish Table S-47, "Various Estimates of Underfunding in PBGC-Insured Plans", in its
Pension Insurance Data Book where the limitations of the estimates can be fully and appropriately
described.
        Under the single-employer program, the PBGC is liable for the payment of guaranteed benefits
with respect only to underfunded terminated plans. An underfunded plan may terminate only if the
PBGC or a bankruptcy court finds that one of the four conditions for a distress termination, as defined
in ERISA, is met or if the PBGC involuntarily terminates a plan under one of five specified statutory
tests. The net liability assumed by the PBGC is generally equal to the present value of the future benefits
payable by the PBGC less amounts provided by the plan’s assets and amounts recoverable by the PBGC
from the plan sponsor and members of the plan sponsor’s controlled group, as defined by ERISA.
       Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance
from the PBGC to allow the plan to continue to pay participants their guaranteed benefits. The PBGC
recognizes assistance as a loss to the extent that the plan is not expected to be able to repay these
amounts from future plan contributions, employer withdrawal liability or investment earnings.


Note 2 -- Significant Accounting Policies
        Basis of Presentation: The accompanying financial statements have been prepared in
accordance with accounting principles generally accepted in the United States of America (GAAP). The
preparation of the financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and liabilities at the date of the financial statements and the reported amounts of
revenues and expenses during the reporting period. Estimates and assumptions may change over time as
new information is obtained or subsequent developments occur. Actual results could differ from those
estimates.


        Valuation Method: A primary objective of the PBGC’s financial statements is to provide
information that is useful in assessing the PBGC’s present and future ability to ensure that its plan
beneficiaries receive benefits when due. Accordingly, the PBGC values its financial assets at estimated
fair value, consistent with the standards for pension plans contained in Statement of Financial
Accounting Standards (FAS) No. 35 (“Accounting and Reporting by Defined Benefit Pension Plans”).
The PBGC values its liabilities for the present value of future benefits and present value of
nonrecoverable future financial assistance using assumptions derived from annuity prices from insurance
companies, as described in the Statement of Actuarial Opinion. As described in Paragraph 21 of FAS
No. 35, the assumptions are “those assumptions that are inherent in the estimated cost at the (valuation)
date to obtain a contract with an insurance company to provide participants with their accumulated plan
benefits.” Also, in accordance with Paragraph 21 of FAS No. 35, the PBGC selects assumptions for
expected retirement ages and the cost of administrative expenses in accordance with its best estimate of
anticipated experience.
        Revolving and Trust Funds: The PBGC accounts for its single-employer and multiemployer
programs’ revolving and trust funds on an accrual basis. Each fund is charged its portion of the benefits
paid each year. The PBGC presents totals that include both the revolving and trust funds for
presentation purposes in the financial statements; however, the single-employer and multiemployer
programs are separate programs by law and, therefore, the PBGC also reports them separately.
        ERISA provides for the establishment of the revolving fund where premiums are collected and
held. The assets in the revolving fund are used to cover deficits incurred by plans trusteed and to
provide funds for financial assistance. The Pension Protection Act of 1987 created a single-employer
revolving (7th) fund that is credited with all premiums in excess of $8.50 per participant, including all
penalties and interest charged on these amounts, and its share of earnings from investments. This fund
may not be used to pay the PBGC’s administrative costs or the benefits of any plan terminated prior to
October 1, 1988, unless no other amounts are available.
        The trust funds include assets (e.g., pension plan investments) the PBGC assumes (or expects to
assume) once a terminated plan has been trusteed, and related investment income. These assets generally
are held by custodian banks. The trust funds support the operational functions of the PBGC.
        The trust funds reflect accounting activity associated with: (1) trusteed plans -- plans for which
the PBGC has legal responsibility–the assets and liabilities are reflected separately on the PBGC’s
Statements of Financial Condition, the income and expenses are included in the Statements of
Operations and Changes in Net Position and the cash flows from these plans are included in the
Statements of Cash Flows, and (2) plans pending termination and trusteeship -- plans for which the
PBGC has begun the process for termination and trusteeship by fiscal year-end -- the assets and liabilities
for these plans are reported as a net amount on the liability side of the Statements of Financial Condition
under “Present value of future benefits, net.” For these plans, the income and expenses are included in
the Statements of Operations and Changes in Net Position, but the cash flows are not included in
the Statements of Cash Flows, and (3) probable terminations -- plans that the PBGC determines are
likely to terminate and be trusteed by the PBGC–the assets and liabilities for these plans are reported as a
net amount on the liability side of the Statements of Financial Condition under “Present value of future
benefits, net.” The accrued loss from these plans is included in the Statements of Operations and
Changes in Net Position as part of “Losses from completed and probable terminations.” The cash flows
from these plans are not included in the Statements of Cash Flows. The PBGC cannot exercise legal
control over a plan’s assets until it becomes trustee.


        Allocation of Revolving and Trust Funds: The PBGC allocates assets, liabilities, income and
expenses to each program’s revolving and trust funds to the extent that such amounts are not directly
attributable to a specific fund. Revolving fund investment income is allocated on the basis of each
program’s average cash and investments available during the year while the expenses are allocated on the
basis of each program’s present value of future benefits. Revolving fund assets and liabilities are
allocated on the basis of the year-end equity of each program’s revolving funds. Plan assets acquired by
the PBGC and commingled at the PBGC’s custodian bank are credited directly to the appropriate fund
while the earnings and expenses on the commingled assets are allocated to each program’s trust funds on
the basis of each trust fund’s value, relative to the total value of the commingled fund.


        Cash and Cash Equivalents: Cash includes cash on hand and demand deposits. Cash
equivalents are securities with a maturity of one business day.


        Securities Lending Collateral: The PBGC participates in a securities lending program
administered by its custodian bank. The custodian bank requires collateral that equals 102 percent to 105
percent of the securities lent. The collateral is held by the custodian bank. In addition to the lending
program managed by the custodian bank, some of the PBGC’s investment managers are authorized to
invest in repurchase agreements (an agreement with a commitment by the seller to buy a security back
from the purchaser at a specified price at a designated future date), and reverse repurchase agreements.
The manager either receives cash as collateral or pays cash out to be used as collateral. Any cash
collateral received is invested.


        Investment Valuation and Income: The PBGC bases market values on the last sale of a listed
security, on the mean of the “bid-and-ask” for nonlisted securities or on a valuation model in the case of
fixed income securities that are not actively traded. These valuations are determined as of the end of
each fiscal year. Purchases and sales of securities are recorded on the trade date. In addition, the PBGC
invests in and discloses its derivative investments in accordance with the guidance contained in FAS No.
133 (“Accounting for Derivative Instruments and Hedging Activities”), as amended. Investment income
is accrued as earned. Dividend income is recorded on the ex-dividend date. Realized gains and losses on
sales of investments are calculated using first-in, first-out for the revolving fund and average cost for the
trust fund. The PBGC marks the plan’s assets to market and any increase or decrease in the market value
of a plan’s assets occurring after the date on which the plan is terminated must, by law, be credited to or
suffered by the PBGC.


        Sponsors of Terminated Plans, Receivables: The amounts due from sponsors of terminated
plans or members of their controlled group represent the settled, but uncollected, claims for employer
liability (underfunding as of date of plan termination) and for contributions due their plan less an
allowance for estimated uncollectible amounts. The PBGC discounts any amounts expected to be
received beyond one year for time and risk factors. Some agreements between the PBGC and plan
sponsors provide for contingent payments based on future profits of the sponsors. The Corporation will
report any such future amounts in the period they are realizable. Income and expenses related to
amounts due from sponsors are reported in the underwriting section of the Statements of Operations
and Changes in Net Position. Interest earned on settled claims for employer liability and due and unpaid
employer contributions (DUEC) is reported as “Income: Other.” The change in the allowances for
uncollectible employer liability and DUEC is reported as “Expenses: Other.”


        Premiums: Premiums receivable represent the estimated earned but unpaid portion of the
premiums for plans that have a plan year commencing before the end of the PBGC’s fiscal year and past
due premiums deemed collectible, including penalties and interest. The liability for unearned premiums
represents an estimate of payments received during the fiscal year that cover the portion of a plan’s year
after the PBGC’s fiscal year-end. Premium income represents actual and estimated revenue generated
from self-assessments from defined benefit pension plans as required by Title IV of ERISA (see Note 9).


        Capitalized Assets: Capitalized assets include furniture and fixtures, electronic processing
equipment and internal-use software. This includes costs for internally developed software incurred
during the application development stage (system design including software configuration and software
interface, coding, testing including parallel processing phase). These costs are shown net of accumulated
depreciation and amortization.


        Present Value of Future Benefits (PVFB): The PVFB is the estimated liability for future
pension benefits that the PBGC is or will be obligated to pay the participants of trusteed plans and the
net liability for plans pending termination and trusteeship. The PVFB liability (including trusteed plans
as well as plans pending termination and trusteeship) is stated as the actuarial present value of estimated
future benefits less the present value of estimated recoveries from sponsors and members of their
controlled group and the assets of plans pending termination and trusteeship as of the date of the
financial statements. The PBGC also includes the estimated liabilities attributable to plans classified as
probable terminations as a separate line item in the PVFB (net of estimated recoveries and plan assets).
The PBGC uses assumptions to adjust the value of those future payments to reflect the time value of
money (by discounting) and the probability of payment (by means of decrements, such as for death or
retirement). The PBGC also includes anticipated expenses to settle the benefit obligation in the
determination of the PVFB. The PBGC’s benefit payments to participants reduces the PVFB liability.
       The values of the PVFB are particularly sensitive to changes in underlying estimates and
assumptions. These estimates and assumptions could change and the impact of these changes may be
material to the PBGC’s financial statements (see Note 4)
           (1) Trusteed Plans--represents the present value of future benefit payments less the present
           value of expected recoveries (for which a settlement agreement has not been reached with
           sponsors and members of their controlled group) for plans that have terminated and been
           trusteed by the PBGC prior to fiscal year-end. Assets are shown separately from liabilities for
           trusteed plans.
           (2) Pending Termination and Trusteeship--represents the present value of future benefit
           payments less the plans’ net assets (at fair value) anticipated to be received and the present
           value of expected recoveries (for which a settlement agreement has not been reached with
           sponsors and members of their controlled group) for plans for which termination action has
           been initiated and/or completed prior to fiscal year-end. Unlike trusteed plans, the
           liability for plans pending termination and trusteeship is shown net of plan assets.
           (3) Settlements and Judgments--represents estimated liabilities related to settled litigation.
           (4) Net Claims for Probable Terminations--In accordance with Statement of Financial
           Accounting Standards No. 5 (Accounting for Contingencies) the PBGC recognizes net claims
           for probable terminations which represent the PBGC’s best estimate of the losses, net of plan
           assets and the present value of expected recoveries (from sponsors and members of their
           controlled group) for plans that are likely to terminate within twelve months of the financial
           statement issuance date. These estimated losses are based on conditions that existed as of the
           PBGC’s fiscal year-end. Management believes it is likely that one or more events subsequent
           to the PBGC’s fiscal year-end will occur, confirming the loss. Criteria used for classifying a
           specific plan as a probable termination include, but are not limited to, one or more of the
           following conditions: the plan sponsor is in liquidation or comparable state insolvency
           proceeding with no known solvent controlled group member; sponsor has filed or intends to
           file for distress plan termination; or the PBGC seeks involuntary plan termination. In
           addition, management takes into account other economic events and factors in making
           judgments regarding the classification of a plan as a probable termination. These events and
           factors may include, but are not limited to: the plan sponsor is in bankruptcy or has indicated
           that a bankruptcy filing is imminent; the plan sponsor has stated that plan termination is
           likely; the plan sponsor has received a going concern opinion from its independent auditors;
           or the plan sponsor is in default under existing credit agreement(s).
           In addition, a reserve for small unidentified probable losses and incurred but not reported
           (IBNR) claims is recorded based on an actuarial loss development methodology (triangulation
           method) (see Note 4). For FY 2007, a comparable reserve for large unidentified probable
           losses was discontinued due to PBGC’s comprehensive probables identification process.
           (5) The PBGC identifies certain plans as high risk if the plan sponsor is in Chapter 11
           proceedings or sponsor’s unsecured debt is rated CCC+/Caa1 or lower by S&P or Moody’s
           respectively. The PBGC specifically reviews each plan identified as high risk and classifies
           those plans as probable if, based on available evidence, the PBGC concludes that plan
           termination is likely. Otherwise, high risk plans are classified as reasonably possible.
           (6) In accordance with Statement of Financial Accounting Standards No. 5 (Accounting for
           Contingencies), the PBGC’s exposure to losses from plans of companies that are classified as
           reasonably possible is disclosed in the footnotes. In order for a plan sponsor to be
           specifically classified as reasonably possible, it must first have $5 million or more of
           underfunding, as well as meet additional criteria. Criteria used for classifying a company as
           reasonably possible include, but are not limited to, one or more of the following conditions:
           the plan sponsor is in Chapter 11 reorganization; funding waiver pending or outstanding with
           the Internal Revenue Service (IRS); sponsor missed minimum funding contribution;
           sponsor’s bond rating is below-investment-grade for Standard & Poor’s (BB+) or Moody’s
           (Ba1); sponsor has no bond rating but unsecured debt is below investment grade; or sponsor
           has no bond rating but the ratio of long-term debt plus unfunded benefit liability to market
           value of shares is 1.5 or greater (see Note 7).


        Present Value of Nonrecoverable Future Financial Assistance: In accordance with Title IV
of ERISA, the PBGC provides financial assistance to multiemployer plans, in the form of loans, to
enable the plans to pay guaranteed benefits to participants and reasonable administrative expenses.
These loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of each
plan.
        The present value of nonrecoverable future financial assistance represents the estimated
nonrecoverable payments to be provided by the PBGC in the future to multiemployer plans that will not
be able to meet their benefit obligations. The present value of nonrecoverable future financial assistance
is based on the difference between the present value of future guaranteed benefits and expenses and the
market value of plan assets, including the present value of future amounts expected to be paid by
employers, for those plans that are expected to require future assistance. The amount reflects the rates at
which, in the opinion of management, these liabilities (net of expenses) could be settled in the market for
single-premium nonparticipating group annuities issued by private insurers (see Note 5).
        A liability for a particular plan is included in the “Present Value of Nonrecoverable Future
Financial Assistance” when it is determined that the plan is currently, or will likely become in the future,
insolvent and will require assistance to pay the participants their guaranteed benefit. Determining
insolvency requires considering several complex factors, such as an estimate of future cash flows, future
mortality rates, and age of participants not in pay status.
        Each year, the PBGC analyzes insured multiemployer plans to identify those plans that are at risk
of becoming claims on the insurance program. Regulatory filings with the PBGC and the other ERISA
agencies are important to this analysis and determination of risk. For example, a multiemployer plan that
no longer has contributing employers files a notice of termination with the PBGC. In general, if a
terminated plan’s assets are less than the present value of its liabilities, the PBGC considers the plan a
probable risk of requiring financial assistance in the future. During FY 2007, eleven underfunded
multiemployer plans terminated, and thus the PBGC recorded a loss representing the present value of
estimated future financial assistance payments to those plans.
        The PBGC also analyzes ongoing multiemployer plans (i.e., plans that continue to have
employers making regular contributions for covered work) to determine whether any such plans may be
probable or possible claims on the insurance program. In conducting this analysis each year, the PBGC
examines plans that are chronically underfunded, have poor cash flow trends, a falling contribution base,
and plans that may lack a sufficient asset cushion to weather temporarily income losses. A combination
of these factors, or any one factor that is of sufficient concern, leads to a more detailed analysis of the
plan’s funding and the likelihood that the contributing employers will be able maintain the plan.


        Other Expenses: These expenses represent an estimate of the net amount of receivables
deemed to be uncollectible during the period (e.g., reserve for disputed or doubtful termination
premiums, write-off of unpaid premiums from recent large plan terminations). The estimate is based on
the most recent status of the debtor (e.g., sponsor), the age of the receivables and other factors that
indicate the element of uncollectibility in the receivables outstanding.


        Losses from Completed and Probable Terminations: Amounts reported as losses from
completed and probable terminations represent the difference as of the actual or expected date of plan
termination (DOPT) between the present value of future benefits (including amounts owed under
Section 4022(c) of ERISA) assumed, or expected to be assumed, by the PBGC, less related plan assets
and the present value of expected recoveries from sponsors and members of their controlled group (see
Note 10). When a plan terminates, the previously recorded probable Net claim is reversed and newly
estimated DOPT plan assets, recoveries and PVFB are netted and reported on the line PVFB - Plans
pending termination and trusteeship (this value is usually different than the amount previously reported),
with any change in the estimate being recorded in the Statements of Operations and Changes in Net
Position. In addition, the plan’s net income from date of plan termination to the beginning of the
PBGC’s fiscal year is included as a component of losses from completed and probable terminations for
plans with termination dates prior to the year in which they were added to the PBGC’s inventory of
terminated plans.


        Actuarial Adjustments and Charges (Credits): The PBGC classifies actuarial adjustments
related to changes in method and the effect of experience as underwriting activity; actuarial adjustments
are the result of the movement of plans from one valuation methodology to another, e.g., nonseriatim
(calculating the liability for the group) to seriatim (calculating separate liability for each person), and of
new data (e.g., deaths, revised participant data). Actuarial charges (credits) related to changes in interest
rates and passage of time is classified as financial activity. These adjustments and charges (credits)
represent the change in the PVFB that results from applying actuarial assumptions in the calculation of
future benefit liabilities (see Note 4).


        Depreciation and Amortization: The PBGC calculates depreciation on the straight-line basis
over estimated useful lives of 5 years for equipment and 10 years for furniture and fixtures. The PBGC
calculates amortization for capitalized software, which includes certain costs incurred for purchasing and
developing software for internal use, on the straight-line basis over estimated useful lives not to exceed 5
years, commencing on the date that the Corporation determines that the internal-use software is
implemented. Routine maintenance and leasehold improvements (the amounts of which are not
material) are charged to operations as incurred.


Note 3 -- Investments
        Premium receipts are invested through the revolving fund in U.S. Treasury securities. The trust
funds include assets the PBGC assumes or expects to assume with respect to terminated plans (e.g.,
recoveries from sponsors) and investment income thereon. These assets generally are held by custodian
banks. The basis and market value of the investments by type are detailed below as well as related
investment profile data. The basis indicated is cost of the asset if assumed after the date of plan
termination or the market value at date of plan termination if the asset was assumed as a result of a plan’s
termination. The PBGC marks the plan’s assets to market and any increase or decrease in the market
value of a plan’s assets occurring after the date on which the plan is terminated must, by law, be credited
to or suffered by the PBGC. Investment securities denominated in foreign currency are translated into
U.S. dollars at the prevailing exchange rates at period end. Purchases and sales of investment securities,
income, and expenses are translated into U.S. dollars at the prevailing exchange rates on the respective
dates of the transactions. The portfolio does not isolate that portion of the results of operations
resulting from changes in foreign exchange rates of investments from the fluctuations arising from
changes in market prices of securities held. Such fluctuations are included with the net realized and
unrealized gain or loss on investments. For the PBGC’s securities, unrealized holding gains and losses
are both recognized by including them in earnings. Unrealized holding gains and losses measure the total
change in fair value – consisting of unpaid interest income earned or unpaid accrued dividend and the
remaining change in fair value from holding the security.
                As the table below illustrates, the market value of investments of the single-employer program
increased significantly from September 30, 2006, to September 30, 2007.




INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS AND SINGLE-EMPLOYER TRUSTEED PLANS
                                                        September 30, 2007                                                   September 30, 2006
                                ___________________________________________________                           _______________________________________
                                                       Basis                 Market                                        Basis                Market
 (Dollars in millions)                                                         Value                                                             Value
___________________________________________________________________________________                           _______________________________________
 Fixed maturity securities:
  U.S. Government securities                         $17,658                  $17,558                                     $20,195                   $19,838
  Commercial paper                                     1,188                    1,188                                       1,591                     1,591
  Asset backed securities                              4,544                    4,494                                       3,714                     3,692
  Corporate and other bonds                           13,250                   13,210                                      10,516                    10,382
                                             ______________         ________________                              ______________          ________________
 Subtotal                                                         36,640                        36,450                     36,016                    35,503
Equity securities                                                 10,729                        17,386                      9,127                    13,730
Real estate and real estate investment trusts                          4                             3                          6                         4
Insurance contracts and other investments                             45                            37                         12                         1
                                                         ______________              ________________             ______________          ________________
Total *                                                             $47,418                       $53,876                    $45,161                   $49,238
* This includes securities on loan at September 30, 2007 and September 30, 2006, with a market value of $4.939 billion and $6.352 billion, respectively.




 INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS
                                                                           September 30, 2007                                    September 30, 2006
                               ____________________________________________________                           _______________________________________
                                                       Basis                Market                                         Basis              Market
 (Dollars in millions)                                                       Value                                                             Value
___________________________________________________________________________________                           _______________________________________
 Fixed maturity securities:
  U.S. Government securities                           $1,199                 $1,189                                         $1,191                    $1,159
 Equity securities                                          0                      0                                              0                         0
                                               _____________         ______________                                  _____________             _____________
 Total                                                 $1,199                 $1,189                                         $1,191                    $1,159
                               INVESTMENT PROFILE
                                                                      September 30,
                                                                      2007            2006
                               Fixed Income Assets
                               Average Quality                         AA              AA
                               Average Maturity (years)               16.7            18.6
                               Duration (years)                       13.4            13.9
                               Yield to Maturity (%)                   5.4             5.3


                               Equity Assets
                               Average Price/Earnings Ratio           18.3            18.7
                               Dividend Yield (%)                      1.8             1.7
                               Beta                                   1.03            1.02




In addition, the PBGC’s trusteed liability return was 0.7% and the duration (years) of these liabilities was
9.6 at the end of 2007.
Derivative Instruments: Derivatives are accounted for at market value in accordance with the Statement
of Financial Accounting Standards No. 133, as amended. Derivatives are marked to market with changes in
value reported within financial income. These instruments are used to (1) mitigate risk (e.g., adjust duration
or currency exposures), (2) enhance investment returns, and/or (3) as liquid and cost efficient substitutes
for positions in physical securities. The standard requires disclosure of fair value on these instruments.
During fiscal years 2006 and 2007, the PBGC invested in investment products that used various U.S. and
non-U.S. derivative instruments including but not limited to: money market, futures, options, government
bond futures, forward contracts, interest rate and credit default swaps and swaption contracts, stock
warrants and rights, debt option contracts, and foreign currency forward and option contracts. Some of
these derivatives are traded on organized exchanges and thus bear minimal counterparty risk. The
counterparties to the PBGC’s non-exchange-traded derivative contracts are major financial institutions.
The PBGC monitors its counterparty risk and has never experienced non-performance by any of its
counterparties.
        A futures contract is an agreement between a buyer or seller and an established futures exchange or
clearinghouse in which the buyer or seller agrees to take or make a delivery of a specific amount of a
financial instrument at a specified price on a specific date (settlement date). The futures exchange
clearinghouses clear, settle, and guarantee transactions occurring through its facilities. Upon entering into a
futures contract, an “initial margin” amount (in cash or liquid securities) of generally one to six percent of
the face value indicated in the futures contract is required to be deposited with the broker. Open futures
positions are marked to market daily. Subsequent payments known as “variation margin” are made or
received by the portfolio dependent upon the daily fluctuations in value of the underlying contract. The
PBGC maintains adequate liquidity in its portfolio to meet these margin calls. Futures contracts are valued
at the most recent settlement price.
        The PBGC also invests in forward contracts. A bond forward is an agreement whereby the short
position agrees to deliver pre-specified bonds to the long at a set price and within a certain time window. A
forward foreign currency exchange contract is a commitment to purchase or sell a foreign currency at the
settlement date at a negotiated rate. Foreign currency forward and option contracts may be used as a
substitute for cash currency holdings, in order to minimize currency risk exposure to changes in foreign
currency exchange rates and to adjust overall currency exposure to reflect the investment views of the fixed
income portfolio managers regarding relationships between currencies.
            A swap is an agreement between two parties to exchange different financial returns on a notional
investment amount. The two major forms of swaps traded are interest rate swaps and credit default swaps.
The PBGC uses swap and swaption contracts to adjust exposure to interest rates, fixed income securities
exposure, credit exposure, and to generate income based on the investment views of the portfolio managers
regarding interest rates, indices and debt issues.
        Interest rate swaps involve exchanges of fixed rate and floating rate interest. Interest rate swaps are
often used to alter exposure to interest rate fluctuations, by swapping fixed rate obligations for floating rate
obligations, or vice versa. The counterparties to the swap agree to exchange interest payments on specific
dates, according to a predetermined formula.
        A credit default swap is a contract between a buyer and seller of protection against a pre-defined
credit event. The portfolio may buy or sell credit default swap contracts to seek to increase the portfolio’s
income or to mitigate the risk of default on portfolio securities.
        An option contract is a contract in which the writer of the option grants the buyer of the option the
right to purchase from (call option) or sell to (put option) the writer a designated instrument at a specified
price within a specified period of time.
        Stock warrants and rights allow the PBGC to purchase securities at a stipulated price within a
specified time limit.
        For the fiscal years ended September 30, 2007 and 2006, respectively, gains and losses from settled
margin calls are reported in Investment income on the Statements of Operations and Changes in Net
Position.
        During FY 2007, PBGC’s investment managers increased their utilization of derivative instruments.
Changing market conditions in FY 2007, such as the significant increase in market volatility and the
substantial decrease in market liquidity, created an environment in which derivative instruments represented
a more cost efficient means for implementing portfolio strategies than in FY 2006
         The following table summarizes the notional amounts and fair market values (FMV) of derivative
financial instruments held or issued for trading as of September 30, 2007, and September 30, 2006.
FY 2006 notional amounts for swaps and options have been revised. The notional (contractual) amount
is used for computing the size of interest payments for swap agreements. It is not an amount actually at
risk, nor is it an amount that is actually exchanged. Instead, it provides a basis for computing interest
flows. These amounts have no impact on assets, liabilities or net position.




                                                             Sept. 30, 2007             Sept. 30, 2006
   DERIVATIVE CONTRACTS                                   Notional      FMV           Notional     FMV
   (Dollars in millions)

   Forwards                                                 $     765    $    (3)        $    685        $ 2


   Futures
     Contracts in a receivable position                          9,380          3        2,940             0
     Contracts in a payable position                             6,869   _    (14)   ____7,970       _    (6) __
   Total futures                                                16,249        (11)      10,910            (6)


   Swap agreements
    Interest rate swaps                                      10,352           (76)           3,116       (18)
    Credit default swaps                                      2,063            33              130         7
   Total swap agreements                                     12,415           (43)           3,246       (11)


   Options purchased (long)                                     6,425          76             463         17
   Options written (sold short)                                 2,338         (49)            704        (19)


    Forwards – foreign exchange                                 1,505          11            1,767        1



 Securities Lending: The PBGC participates in a securities lending program administered by its
 custodian bank whereby the custodian bank lends PBGC’s securities to third parties. The custodian
 bank requires collateral from the borrower that equals 102 percent to 105 percent of the securities lent.
 The collateral is held by the custodian bank. In addition to the lending program managed by the
 custodian bank, some of the PBGC’s investment managers are authorized to invest in repurchase
 agreements and reverse repurchase agreements. The manager either receives cash as collateral or pays
 cash out to be used as collateral. Any cash collateral received is invested. The total value of securities on
 loan at September 30, 2007, and September 30, 2006, was $4.939 billion and $6.352 billion, respectively.
Although securities on loan have decreased since September 30, 2006, there continues to be an ongoing
demand for fixed income securities to lend.

      The amount of cash collateral received for these loaned securities was $5.045 billion at September
30, 2007, and $6.491 billion at September 30, 2006. These amounts are recorded as assets and are offset
with a corresponding liability. The PBGC had earned income from securities lending of $6.2 million as
of September 30, 2007 and $5.2 million as of September 30, 2006. Net income from securities lending is
included in “Investment income – Fixed” on the Statements of Operations and Changes in Net Position.
As of September 30, 2007, the PBGC loaned out $4.939 billion in securities of approximately $18.210
billion of securities available for securities lending. At September 30, 2006, securities lending collateral
was included in “Cash and cash equivalents”; beginning in FY 2007 securities lending collateral is shown
separately on the Statements of Financial Condition. This change had no effect on net position.
        Of the $4.939 billion market value of securities on loan at September 30, 2007, approximately
86% are invested in U.S. government securities and 13% in U.S. corporate securities.


Note 4 -- Present Value of Future Benefits
        The following table summarizes the actuarial adjustments, charges and credits that explain how
the Corporation’s single-employer program liability for the present value of future benefits changed for
the years ended September 30, 2007 and 2006.
        For FY 2007, the PBGC used a 20-year select interest factor of 5.31% followed by an ultimate
factor of 4.88% for the remaining years. In FY 2006, the PBGC used a 25-year select interest factor of
4.85% followed by an ultimate factor of 4.82% for the remaining years. These factors were determined
to be those needed, given the mortality assumptions, to continue to match the survey of annuity prices
provided by the American Council of Life Insurers (ACLI). Both the interest factor and the length of
the select period may vary to produce the best fit with these prices. The prices reflect rates at which, in
the opinion of management, the liabilities (net of administrative expenses) could be settled in the market
at September 30, for the respective year, for single-premium nonparticipating group annuities issued by
private insurers. Many factors, including Federal Reserve policy, changing expectations about longevity
risk, and competitive market conditions may affect these rates.
        For FY 2005, the surveys of annuity prices were used in conjunction with a Moody’s bond index,
averaged over the last five days of each month. Beginning in FY 2006, a Lehman’s bond index is used
instead; this index is as of only the last day of the month, and is applied to both the select and ultimate
factors instead of the select factor only as had been prior practice. Finally, interest factors beginning in
FY 2006 are now rounded to two decimal places instead of one so as to be able to state to the level of a
single basis point. For FY 2005 and prior years, the select factor was rounded to ten basis points, and
the ultimate factor was rounded to 25 basis points.
        For September 30, 2007, the PBGC used the 1994 Group Annuity Mortality (GAM) 94 Static
Table (with margins), set forward one year and projected 23 years to 2017 using Scale AA. For
September 30, 2006, the PBGC used the same table set forward one year, projected 22 years to 2016
using scale AA. The number of years that the PBGC projects the mortality table reflects the number of
years from the 1994 base year of the table to the end of the fiscal year (13 years in 2007 versus 12 years in
2006) plus the PBGC’s calculated duration of its liabilities (10 years in both 2007 and 2006). The
PBGC’s procedure is based on the procedures recommended by the Society of Actuaries UP-94 Task
Force (which developed the GAM94 table) for taking into account future mortality improvements.
         The PBGC continues to utilize the results of its 2004 mortality study. The study showed that
the mortality assumptions used in FY 2003 reflected higher mortality than was realized in the PBGC’s
seriatim population. Therefore, the PBGC adopted a base mortality table (i.e., GAM94 set forward one
year instead of GAM94 set forward two years) that better reflects past mortality experience. The ACLI
survey of annuity prices, when combined with the mortality table, provides the basis for determining the
interest factors used in calculating the PVFB. The insurance annuity prices, when combined with the
stronger mortality table, result in a higher interest factor.
        The reserve for administrative expenses in the 2006 valuations was assumed to be 1.18 percent of
benefit liabilities plus additional reserves for cases in which plan asset determinations, participant
database audits and actuarial valuations were not yet complete. As the result of an updated study, the
expense reserve factor for FY 2007 has changed to 1.37 percent. The factors to determine the additional
reserves were also re-estimated and continue to be based on plan milestone completion as well as case
size, number of participants and time since trusteeship.
        The present values of future benefits for trusteed multiemployer plans for 2007 and 2006 reflect
the payment of assistance and the changes in interest and mortality assumptions, the passage of time and
the effect of experience.
        The resulting liability represents the PBGC’s best estimate of the measure of anticipated
experience under these programs.
RECONCILIATION OF THE PRESENT VALUE OF FUTURE BENEFITS FOR THE YEARS ENDED SEPTEMBER 30, 2007 AND 2006

                                                                                                                  September 30,
  (Dollars in millions)                                                                        2007                                                     2006
  Present value of future benefits, at beginning                                                                                                               $ 69,737
       of year -- Single-Employer, net                                                                $ 69,143
    Estimated recoveries, prior year                                                                        62                                                     343
    Assets of terminated plans pending trusteeship, net, prior year                                        282                                                   3,039
    Present value of future benefits at beginning of year, gross                                        69,487                                                  73,119
    Settlements and judgments, prior year                                                                  (55)                                                    (58)
    Net claims for probable terminations, prior year                                                    (4,862)                                                (10,470)
    Actuarial adjustments -- underwriting:
      Changes in method and assumptions                                             $     (88)                                              $ (609)
      Effect of experience                                                                (26)                                                 185
      Total actuarial adjustments -- underwriting                                        (114)                                                (424)
    Actuarial charges -- financial:
      Passage of time                                                                    3,269                                                  3,206
      Change in interest rates                                                          (2,809)                                                 2,037
      Total actuarial charges -- financial                                                460                                                   5,243
    Total actuarial charges, current year                                                                 346                                                    4,819
    Terminations:
      Current year                                                                      5,548                                                   1,112
      Changes in prior year                                                              (109)                                                    130
      Total terminations                                                                                5,439                                                     1,242
    Benefit payments, current year*                                                                    (4,266)                                                   (4,082)
    Estimated recoveries, current year                                                                   (155)                                                      (62)
    Assets of terminated plans pending trusteeship, net, current year                                    (540)                                                     (282)
    Settlements and judgments, current year                                                                55                                                        55
    Net claims for probable terminations:
      Future benefits**                                                               14,810                                                 17,430
      Estimated plan assets and recoveries from sponsors                             (11,024)                                               (12,568)
       Total net claims, current year                                                                   3,786                                                    4,862
  Present value of future benefits,
    at end of year -- Single-Employer, net                                                             69,235                                                   69,143
  Present value of future benefits,
    at end of year – Multiemployer                                                                           2                                                        2
  Total present value of future benefits, at end of year, net                                         $ 69,237                                                 $ 69,145


   * The benefit payments of $4,266 million and $4,082 million include $96 million in 2007 and $76 million in 2006 for benefits paid from plan
  assets by plans prior to trusteeship.
  ** The future benefits for probable terminations of $14,810 million and $17,430 million for fiscal years 2007 and 2006, respectively, include $71
  million and $87 million, respectively, in net claims (future benefits less estimated plan assets and recoveries) for probable terminations not
  specifically identified and $14,739 million and $17,343 million, respectively, in net claims for specifically identified probables.


  The following table details the assets that make up single-employer terminated plans pending
  termination and trusteeship:



  ASSETS OF SINGLE-EMPLOYER PENDING TERMINATION AND TRUSTEESHIP, NET
                                                       September 30, 2007                                                  September 30, 2006
                                                   Basis                Market                                     Basis                      Market
  (Dollars in millions)                                                   Value                                                                Value
 ________________________________________________________ ___________________                     ______________________       ______________________
  U.S. Government securities                         $ 11                   $ 11                                    $ 0                          $ 0
  Corporate and other bonds                           151                     155                                    107                          113
  Equity securities                                   172                     187                                    117                          156
  Insurance contracts                                    1                      0                                      4                             4
  Other                                               188                     187                                      9                             9
                                          ______________       _______________                           ______________            __________________
  Total, net                                                    $523                    $540                        $237                                $282
 Net Claims for Probable Terminations: Factors that are presently not fully determinable may be
 responsible for these claim estimates differing from actual experience. Included in net claims for
 probable terminations is a provision for future benefit liabilities for plans not specifically identified.
              The values recorded in the following reconciliation table have been adjusted to the expected dates
 of termination.


RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS
                                                                                              September 30,
 (Dollars in millions)                                                       2007                                        2006
 Net claims for probable terminations, at beginning of year                            $ 4,862                                   $10,470
 New claims                                                      $ 130                                        $ 3,063
 Actual terminations                                              (1,745)                                        (288)
 Deleted probables                                                    (17)                                     (8,035)
 Change in benefit liabilities                                     1,189                                         (867)
 Change in plan assets                                              (633)                                         519
 Loss (credit) on probables                                                             (1,076)                                    (5,608)
 Net claims for probable terminations, at end of year                                  $ 3,786                                    $ 4,862


 The following table itemizes the probable exposure by industry:
 PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
 (Dollars in millions)                                              FY 2007                   FY 2006
 Manufacturing                                                       $ 3,590                   $3,318
 Services/Other                                                          150                      197
 Wholesale and Retail Trade                                               27                        7
 Finance, Insurance, and Real Estate                                      19                       20
 Transportation, Communication and Utilities                               -                    1,279
 Agriculture, Mining, and Construction                                        -                    41
 Total                                                               $3,786                    $4,862


 For further detail, see Note 2 subpoint (4)
                The following table shows what has happened to plans classified as probables. This table does
 not capture or include those plans that were not previously classified as probable before they terminated.
 This table incorporates the impact of the additional probable deletions of the Pension Protection Act
 (PPA). The second table below reflects results excluding the impact due to the PPA, which was an
 unpredictable factor impacting the PBGC’s ability to predict probables as terminations.

 ACTUAL PROBABLES EXPERIENCE
 As Initially Recorded Beginning in 1987
 (Dollars in millions)                                                              Status of Probables from 1987-2006 at September 30, 2007
 Beginning in 1987, number of plans reported as Probable:     Number of Plans               Percent of Plans                Net Claim          Percent of Net
                                                                                                                                                        Claim
 Probables terminated                                                    308                          78%                       $24,106                 66%
 Probables not yet terminated or deleted                                      6                         2%                        3,004                  8%
 Probables deleted *                                                      80                          20%                         9,358                26%
 Total                                                                   394                         100%                       $36,468               100%


 * “Probables deleted” in the above table includes 5 plans deleted due to airline provisions pursuant
 PPA. Absent passage of PPA and had these 5 plans terminated, the following values in the above table
 would be adjusted:
ADJUSTED PROBABLES EXPERIENCE – excluding impact of Pension Protection Act of 2006
As Initially Recorded Beginning in 1987
(Dollars in millions)                                                         Status of Probables from 1987-2006 at September 30, 2007
Beginning in 1987, number of plans reported as Probable:   Number of Plans         Percent of Plans                   Net Claim          Percent of Net
                                                                                                                                                  Claim
   Probables terminated                                               313                     79%                        $32,315                  89%
   Probables not yet terminated or deleted                               6                       2%                       3,004                    8%
   Probables deleted *                                                 75                     19%                          1,149                  3%
   Total                                                              394                    100%                        $36,468                100%




Note 5 -- Multiemployer Financial Assistance
               The PBGC provides financial assistance to multiemployer defined benefit pension plans in
the form of loans. An allowance is set up to the extent that repayment of these loans is not expected.


NOTES RECEIVABLE MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                                 September 30,
  (Dollars in millions)                                              2007                                        2006


  Gross balance at beginning of year                                 $ 155                                       $ 85
  Financial assistance payments - current year                          71                                         70
                                                              ____________                               ____________
  Subtotal                                                             226                                        155
  Allowance for uncollectible amounts                                 (226)                                      (155)
                                                              ____________                               ____________
  Net balance at end of year                                           $ 0                                         $ 0




               The losses from financial assistance reflected in the Statements of Operations and Changes in
Net Position include period changes in the estimated present value of nonrecoverable future financial
assistance.
               As of September 30, 2007, the corporation expects 94 multiemployer plans will exhaust plan
assets and need financial assistance from the PBGC to pay guaranteed benefits and plan administrative
expenses. The present value of nonrecoverable future financial assistance for these 94 plans is $2.1
billion. The 94 plans fall into three categories - plans currently receiving financial assistance; plans that
have terminated but have not yet started receiving financial assistance from the PBGC; and ongoing
plans (not terminated) that the corporation expects will require financial assistance in the future.
               Of the 94 plans:
         •       34 have exhausted plan assets and are currently receiving financial assistance payments from the
                 PBGC. The present value of future financial assistance payments for these insolvent 34 plans is
                 $928 million.
       •       49 plans have terminated but have not yet started receiving financial assistance payments from
               the PBGC. Terminated multiemployer plans no longer have employers making regular
               contributions for covered work, though some plans continue to receive withdrawal liability
               payments from withdrawn employers. In general, the PBGC records a loss for future financial
               assistance for any underfunded multiemployer plan that has terminated. The present value of
               future financial assistance payments to these 49 terminated plans is $625 million.
       •       11 plans are ongoing (i.e., have not terminated), but the PBGC expects these plans will exhaust
               plan assets and need financial assistance within 10 years. In this analysis, the PBGC takes into
               account the current plan assets, future income to the plan, the statutory funding rules, and the
               possibility for future increases in contributions. The present value of future financial assistance
               payments for these 11 ongoing plans is $571 million.




PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
                                                                               September 30,
 (Dollars in millions)                                              2007                               2006

 Balance at beginning of year                                        $1,876                             $1,485
 Changes in allowance:
  Losses from financial assistance                                     319                                    461
  Financial assistance granted
    (previously accrued)                                                (71)                               (70)
                                                               ____________                       ____________
 Balance at end of year                                              $2,124                             $1,876




Note 6 -- Accounts Payable and Accrued Expenses
        The following table itemizes accounts payable and accrued expenses reported in the Statements
of Financial Condition:



ACCOUNTS PAYABLE AND ACCRUED EXPENSES
                                                                                September 30,
  (Dollars in millions)                                                2007                                2006
____________________________________________________________________________          _________________________
  Annual leave                                                          $ 6                                 $ 5
  Other payables and accrued expenses                                    105                                 88
                                                      _____________________               ____________________
  Accounts payable and accrued expenses                                 $111                                $93
 Note 7 -- Contingencies
                Single-employer plans sponsored by companies whose credit quality is below investment grade pose
 a greater risk of being terminated. In addition, there are some multiemployer plans that may require future
 financial assistance. The amounts disclosed below represent the Corporation’s best estimates of
 the reasonably possible losses in these plans given the inherent uncertainties about these plans.
                In accordance with Statement of Financial Accounting Standards No. 5, the PBGC classified a
 number of these companies as reasonably possible terminations as the sponsors’ financial condition and
 other factors did not indicate that termination of their plans was likely as of year-end. The best estimate of
 aggregate unfunded vested benefits exposure to the PBGC for the companies’ single-employer plans
 classified as reasonably possible as of September 30, 2007, was $66 billion. This is down from $73 billion in
 FY 2006.
                The estimated unfunded vested benefits exposure has been calculated as of December 31, 2006, and
 is not based on the PBGC-guaranteed levels. The PBGC calculated this estimate as in previous years by
 using data obtained from filings and submissions to the government and from corporate annual reports for
 fiscal years ending in calendar 2006. The Corporation adjusted the value reported for liabilities to a
 December 31, 2006, PBGC select rate of 5.02% that was derived using the 1994 Group Annuity Mortality
 Static Table (with margins) projected to 2016 using Scale AA. When available, data were adjusted to a
 consistent set of mortality assumptions. The underfunding associated with these plans would generally tend
 to be smaller at September 30, 2007, because of the economic conditions that existed between December 31,
 2006 and September 30, 2007. The Corporation did not adjust the estimate for events that occurred
 between December 31, 2006, and September 30, 2007.

                The following table itemizes the reasonably possible exposure by industry:
REASONABLY POSSIBLE EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
 (Dollars in millions)                                               FY 2007         FY 2006
 Manufacturing                                                        $31,364         $37,634
 Transportation, Communication and Utilities                           19,454          20,509
 Services/Other                                                         6,901           6,969
 Wholesale and Retail Trade                                             5,808           6,096
 Finance, Insurance, and Real Estate                                    1,153             857
 Agriculture, Mining, and Construction                                    985           1,220
 Total                                                               $65,665          $73,285




                The PBGC included amounts in the liability for the present value of nonrecoverable future financial
 assistance (see Note 5) for multiemployer plans that the PBGC estimated may require future financial
 assistance. In addition, the PBGC currently estimates that it is reasonably possible that other multiemployer
 plans may require future financial assistance in the amount of $73 million.
                The Corporation calculated the future financial assistance liability for each multiemployer plan
 identified as probable (see Note 5), or reasonably possible as the present value of guaranteed future benefit
and expense payments net of any future contributions or withdrawal liability payments as of the later of
September 30, 2007, or the projected (or actual, if known) date of plan insolvency, discounted back to
September 30, 2007. The Corporation’s identification of plans that are likely to require such assistance and
estimation of related amounts required consideration of many complex factors, such as an estimate of future
cash flows, future mortality rates, and age of participants not in pay status. These factors are affected by
future events, including actions by plans and their sponsors, most of which are beyond the Corporation’s
control.
           The PBGC used select and ultimate interest rate assumptions of 5.31% for the first 20 years after the
valuation date and 4.88% thereafter. The Corporation also used the 1994 Group Annuity Mortality Static
Table (with margins), set forward one year, and projected 23 years to 2017 using Scale AA.


Note 8 – Commitments
           The PBGC leases its office facility under a new commitment that began on January 1, 2005, and
expires December 10, 2018. The new lease agreement was entered into because of the need for additional
office space. This lease provides for periodic rate increases based on increases in operating costs and real
estate taxes over a base amount. In addition, the PBGC is leasing space for field benefit administrators.
These leases began in 1996 and expire in 2013. The minimum future lease payments for office facilities
having noncancellable terms in excess of one year as of September 30, 2007, are as follows:

COMMITMENTS: FUTURE LEASE PAYMENTS
(Dollars in millions)
Years Ending                                                           Operating
September 30,                                                             Leases
2008                                                                     $ 19.0
2009                                                                        18.3
2010                                                                        18.1
2011                                                                        19.2
2012                                                                        18.4
Thereafter                                                                 127.5
Minimum lease payments                                                    $220.5




Lease expenses were $21.9 million in 2007 and $18.7 million in 2006.


Note 9 -- Premiums
           For both the single-employer and multiemployer programs, ERISA provides that the PBGC shall
continue to guarantee basic benefits despite the failure of a plan administrator to pay premiums when due.
The PBGC assesses interest and penalties on the unpaid portion of or underpayment of premiums. Interest
continues to accrue until the premium and the interest due are paid. For plan year 2006 the flat-rate
premiums for single-employer pension plans was $30 per participant and the multiemployer plans yearly
premium was $8 per participant. For plan year 2007, per participant rates were $31 for single-employer
plans and $8 for multiemployer plans. The PBGC recorded premium income, excluding interest and
penalty, of approximately $1.1 billion in flat-rate premiums, $358 million in variable-rate premiums, and $61
million in termination premiums for fiscal year 2007, and approximately $941 million in flat-rate premiums
and $550 million in variable-rate premiums for fiscal year 2006. The termination premium is a new $1,250
per participant annual post-termination premium payable for three years that applies to certain plan
terminations occurring after 2005.
             Since premium income for FY 2007 primarily consists of plan year 2007 and 2006 premiums, and
revenue recognition accounting principles require partial recognition of plan year 2007 premiums as of
September 30, 2007, the 2007 increase in flat-rate premium income represents approximately 65% of the full
impact to the plan year 2007 flat-rate premiums due for all plans.


Note 10 -- Losses from Completed and Probable Terminations
     Amounts reported as losses are the present value of future benefits less related plan assets and the present
value of expected recoveries from sponsors. The following table details the components that make up the
losses:

LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS -- SINGLE-EMPLOYER PROGRAM
                                                                                    For the Years Ended September 30,
                                                                    2007                                                        2006
                                                                 Changes in                                                  Changes in
                                               New               Prior Year                                   New            Prior Year
(Dollars in millions)                       Terminations        Terminations         Total                 Terminations     Terminations            Total
Present value of future benefits              $ 5,548                    $(109)      $ 5,439                     $1,112             $ 130            $ 1,242
Less plan assets                                3,802                       69         3,871                         582              1,370            1,952
Plan asset insufficiency                        1,746                     (178)        1,568                         530            (1,240)            ( 710)
Less estimated recoveries                           0                       94            94                            3              (165)            (162)
Subtotal                                       1,746*                     (272)        1,474                         527*           (1,075)             (548)
Settlements and judgments                                                     1            1                                              1                 1
Loss (credit) on probables                      (1,745)                    669        (1,076)**                     (288)            (5,320)           (5,608)**
Total                                          $     1                    $ 398      $ 399                        $ 239            $(6,394)           $(6,155)
* gross amounts for plans terminated during the year.
** see Note 4 – includes $1,745 million at September 30, 2007, and $288 million at September 30, 2006, previously recorded relating to plans that
  terminated during the period.
Note 11 -- Financial Income
      The following table details the combined financial income by type of investment for both the single-
employer and multiemployer programs:

INVESTMENT INCOME SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
                            Single-Employer      Multiemployer         Memorandum            Single-Employer     Multiemployer          Memorandum
                                   Fund              Fund                  Total                   Fund              Fund                   Total
(Dollars in millions)          Sept. 30, 2007    Sept. 30, 2007        Sept. 30, 2007         Sept. 30, 2006     Sept. 30, 2006         Sept. 30, 2006


Fixed income securities:
 Interest earned                        $1,992               $ 60                $2,052                $1,756                $ 56               $1,812
 Realized loss                           (620)                (62)                 (682)                 (815)                (44)                (859)
 Unrealized gain (loss)                    358                 25                   383                  (547)                (13)                (560)


Total fixed income
securities                               1,730                    23               1,753                 394                      (1)              393


Equity securities:
 Dividends earned                           88                     0                 88                    89                     0                 89
 Realized gain                             801                     0                801                   522                     0                522
 Unrealized gain                         2,099                     0              2,099                 1,182                     0              1,182


 Total equity securities                 2,988                     0              2,988                 1,793                     0              1,793


Other income (loss)                         19                     0                    19                 (3)                    0                  (3)


Total investment income
(loss)                                  $4,737               $ 23                $4,760                $2,184                $ (1)              $2,183




Note 12 -- Employee Benefit Plans
                           All permanent full-time and part-time PBGC employees are covered by the Civil Service
Retirement System (CSRS) or the Federal Employees Retirement System (FERS). Full-time and part-time
employees with less than five years service under CSRS and hired after December 31, 1983, are automatically
covered by both Social Security and FERS. Employees hired before January 1, 1984, participate in CSRS
unless they elected and qualified to transfer to FERS.
                           The Corporation’s contribution to the CSRS plan for both 2007 and 2006 was 7.0 percent of
base pay for those employees covered by that system. For those employees covered by FERS, the
Corporation’s contribution was 11.2 percent of base pay for both 2007 and 2006. In addition, for FERS-
covered employees, the PBGC automatically contributes one percent of base pay to the employee’s Thrift
Savings account, matches the first three percent contributed by the employee and matches one-half of the
next two percent contributed by the employee. Total retirement plan expenses amounted to $14 million in
2007 and $13 million in 2006.
             These financial statements do not reflect CSRS or FERS assets or accumulated plan benefits
applicable to the PBGC employees. These amounts are reported by the U.S. Office of Personnel
Management (OPM) and are not allocated to the individual employers. OPM accounts for federal health
and life insurance programs for those eligible retired the PBGC employees who had selected federal
government-sponsored plans. The PBGC does not offer other supplemental health and life insurance
benefits to its employees.


Note 13 -- Cash Flows
        The following two tables, one for Sales and one for Purchases, provide further details on cash flows
from investment activity. Sales and purchases of investments are driven by the level of newly trusteed plans,
the unique investment strategies implemented by the PBGC’s investment managers, and the varying capital
market conditions in which they invest during the year. These cash flow numbers can vary significantly from
year to year based on the fluctuation in these three variables.

    INVESTING ACTIVITIES (SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS COMBINED)
                                                                               September 30,
     (Dollars in millions)                                            2007                        2006
     Proceeds from sales of investments:
        Fixed maturity securities                                  $107,251                    $84,901
        Equity securities                                             3,314                      2,622
       Other/uncategorized                                           15,093                      4,857
     Memorandum total                                              $125,658                    $92,380

     Payments for purchases of investments:
        Fixed maturity securities                                 $(108,530)                   $(88,655)
        Equity securities                                            (4,287)                     (2,942)
        Other/uncategorized                                         (11,627)                      (653)
     Memorandum total                                             $(124,444)                   $(92,250)




The following is a reconciliation between the net income as reported in the Statements of Operations and
Changes in Net Position and net cash provided by operating activities as reported in the Statements of Cash
Flows. Cash and cash equivalents at September 30, 2006, has been adjusted on the Statements of Financial
Condition and “Cash and cash equivalents, beginning of year” on the Statements of Cash Flows due to the
addition of a separate line for “Securities lending collateral” on the Statements of Financial Condition.
RECONCILIATION OF NET INCOME TO NET CASH PROVIDED BY OPERATING ACTIVITIES
                                                           Single-Employer       Multiemployer       Memorandum
                                                               Program              Program               Total
                                                              September 30,       September 30,        September 30,
 (Dollars in millions)                                      2007         2006     2007      2006     2007         2006
 Net income (loss)                                        $ 5,031      $4,634    $(216)   $(404)   $ 4,815      $4,230
 Adjustments to reconcile net income to net cash
  provided by operating activities:
     Net (appreciation) decline in fair value of
        investments                                        (2,716)      (350)      37       61       (2,679)     (289)
     Net gain (loss) of plans pending termination and
        trusteeship                                          (159)         19       0         0        (159)        19
     Losses on completed and probable terminations            399      (6,155)      0         0         399     (6,155)
     Actuarial charges                                        346       4,819       0         0         346      4,819
     Benefit payments - trusteed plans                     (4,170)     (4,006)      0         0      (4,170)    (4,006)
     Settlements and judgments                                 (2)         (3)      0         0          (2)         (3)
     Cash received from plans upon trusteeship                165          75       0         0         165          75
     Receipts from sponsors/non-sponsors                      459         886       1         0         460        886
     Amortization of discounts/premiums                      (599)       (319)    (53)      (28)       (652)      (347)
     Changes in assets and liabilities, net of effects
       of trusteed and pending plans:
           Decrease in receivables                            197        150        1        11         198        161
           Increase in present value of nonrecoverable
             future financial assistance                                          248       391         248       391
           Increase (decrease) in unearned premiums             4         88        (1)      19           3       107
           Increase in accounts payable                        18         23         0        0          18        23
 Net cash provided (used) by operating activities        $ (1,027)    $ (139)     $ 17    $ 50     $ (1,010)    $ (89)



Note 14 – Litigation
       Legal challenges to PBGC’s policies and position continued in 2007. At the end of the fiscal year, the
PBGC had 467 open, active bankruptcy cases and 82 active cases in state and federal courts (other than in
bankruptcy court). The PBGC records as a liability on its financial statements an estimated cost for
unresolved litigation to the extent that losses in such cases are probable and estimable in amount. In
addition to such recorded cases, at September 30, 2007, the PBGC estimated that possible losses of up to
$36 million could be incurred in the event that the PBGC does not prevail in these matters. These possible
losses are not recognized in the financial statements.



Note 15 -- Subsequent Events
       For the year ended September 30, 2007, there were no subsequent events to report on either the single-
employer or multiemployer program.
   Section III

Agency Comments
                                    MEMORANDUM


To:            Deborah Stover-Springer                               November 7, 2007
               Acting Inspector General


From:          Charles E. F. Millard
               Interim Director


Subject:       Response to Draft Independent Auditor’s Combined Report Issued in
               Connection with the FY 2007 Financial Statement Audit

I value the work of the Office of Inspector General in overseeing the FY 2007 financial
statement audit. In addition, I appreciate the opportunity to comment on the draft report
containing the opinions on the agency’s financial statements, management’s assertion on the
effectiveness of internal controls, and matters relating to compliance with laws and
regulations. As a financial institution, it is noteworthy that PBGC has again received
unqualified opinions on the Corporation’s financial statements and its internal controls for
FY 2007.

Progress in the internal controls area was commendable. In particular, I appreciate your
recognition of the progress that PBGC has made in addressing last year’s reportable
condition relating to our preparedness for unanticipated incidences and disruptions of our
business operations. In the uncertain world in which we live, the progress in this area is
particularly gratifying.

The report also commendably highlights the data quality improvements made in the single-
employer premium system. We look forward to working on the remaining premium system
issues as part of the significant deficiency related to integrated financial management
systems.

We agree with the three recommendations in the report and will work aggressively on the
related areas of information security, access controls, and financial management systems
integration. The Corporation is in the process of preparing formal Corrective Action Plans
to address each of these conditions.

Again, the work of the OIG is sincerely appreciated, and I look forward to working with you
in responding to the issues that you have called to our attention.

cc:    Vincent K. Snowbarger
       Stephen E. Barber
       Terrence M. Deneen
       Patsy A. Garnett
       Richard H. Macy
       Judith R. Starr
       Theodore J. Winter, Jr.
       Martin O. Boehm
